  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


     University of Texas Health Science
          Center, Houston, Texas
           FEMA Disaster Number DR-1379-TX




           Central Regional Office
   Office of Disaster Assistance Oversight
DD-07-01                              October 2006
                                                                               Office of Inspector General

                                                                               U.S. Department of Homeland Security
                                                                               Central Regional Office
                                                                               Office of Disaster Assistance Oversight
                                                                               3900 Karina Street, Room 224
                                                                               Denton, Texas 76208




                                              October 17, 2006


MEMORANDUM FOR:                  William E. Peterson, Director
                                 FEMA Region VI




FROM:                            Tonda L. Hadley, Director
                                 Central Regional Office

SUBJECT:                         University of Texas Health Science Center, Houston, Texas
                                 FEMA Disaster Number DR-1379-TX
                                 Public Assistance Identification Number 000-UAA9T-00
                                 Audit Report Number DD-07-01

The Office of Inspector General (OIG) audited public assistance funds awarded to the University of
Texas Health Science Center (UTHSC), Houston, Texas. Our audit objective was to determine
whether UTHSC accounted for and expended Federal Emergency Management Directorate (FEMA)
funds according to federal regulations and FEMA guidelines.

UTHSC received an award of $39.4 million from the Texas Governor’s Division of Emergency
Management (GDEM), a FEMA grantee, for damages caused by Tropical Storm Allison beginning
on June 5, 2001. Tropical Storm Allison produced severe flooding, causing physical damage and
failure of utilities at the University of Texas Medical School Complex. The award provided 75
percent FEMA funding, for 30 large projects and 42 small projects.1 The audit covered the period
June 5, 2001, to June 7, 2005, during which GDEM awarded UTHSC $39.4 million and disbursed
$23.5 million2 for direct program costs. We audited 4 large projects and 2 small projects totaling
$12.7 million or 32 percent of the total award (see Exhibit). As of the date of this report, FEMA had
not closed all of the UTHSC projects, including one project in our scope of review; therefore, some
of the data in this report is subject to change after the final closeout.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included interviews of
UTHSC, GDEM, and FEMA Region VI officials; reviews of UTHSC’s contract files; tests of
UTHSC’s accounting records; judgmental samples generally based on dollar values of project
expenditures; and other auditing procedures considered necessary to accomplish the audit objective.

1
 Federal regulations in effect at the time of the disaster set the large project threshold at $50,600.
2
 The $39.4 million awarded is based on June 7, 2005, National Emergency Management Information System data,
whereas the $23.5 million of direct program costs is based on data obtained from GDEM on May 23, 2005.
We did not assess the adequacy of UTHSC's internal controls applicable to its grant activities
because it was not necessary to accomplish our audit objective. We did, however, gain an
understanding of UTHSC's grant accounting system used to account for disaster-related costs and its
procurement policies and procedures.


                                      RESULTS OF AUDIT

UTHSC did not account for and expend all FEMA funds according to federal regulations and FEMA
guidelines. UTHSC’s claim included $1,903,825 (FEMA share $1,427,869) in questioned costs,
consisting of $1,268,303 in ineligible contractor costs and $635,522 in unsupported contractor costs.
In addition, UTHSC did not follow all federal procurement standards or FEMA guidelines in
awarding contracts totaling $14,553,491. However we did not question costs based solely on
noncompliance with federal procurement standards because the procurements occurred under
exigent circumstances.


Finding A: Ineligible Contractor Costs

UTHSC claimed $1,268,303 in ineligible contractor costs, made up of the following:

   •   $1,090,345 in unallowable contractor markups on Projects 1885 ($659,950) and 1886
       ($430,395). Markups on Project 1885 ranged from 10 percent to 17 percent on contractor and
       sub-contractor billings for labor, equipment and various expense items. Markups on Project
       1886 ranged from 6 percent to 10 percent for labor, materials, and equipment. The markups
       on these projects resulted from the use of cost-plus-a-percentage-of-cost contract provisions,
       which are prohibited by 44 CFR 13.36(f)(4).
   •   $164,337 in contract labor costs on Project 1886 charged at rates that exceeded agreed-upon
       contract rates and labor costs inappropriately claimed as overtime.
   •   $6,871 in duplicate charges on Project 1886. UTHSC claimed duplicate costs for sub-
       contractor labor, equipment, and material.
   •   $5,000 in equipment stand-by costs on Project 1658. According to FEMA Publication 321,
       Public Assistance Policy Digest, equipment rates are applied only to the time equipment is
       actually working. Standby time and idle time are not eligible.
   •   $1,750 in contractor freight charges on Project 1658 that exceeded the not-to-exceed ceiling
       price for freight on the contract.

       Recommendation

We recommend that the Regional Director, FEMA Region VI:

   1. Disallow $1,268,303 in ineligible contractor costs on Projects 1885 ($659,950), 1886
      ($601,603), and 1658 ($6,750).




                                                  2
Finding B: Unsupported Contractor Costs

UTHSC claimed $635,522 in unsupported contract costs that consisted of the following:

   •   $624,190 in unsupported contract labor, equipment, and material costs on Project 1886.
       UTHSC did not provide payroll records to support claimed contract labor costs and did not
       provide invoices for material and equipment charges.
   •   $3,120 in contractor costs on Project 1658 not supported by invoices.
   •   $8,212 in unsupported costs for Projects 1658 and 2384 that exceeded supported claimed
       costs. The amount FEMA awarded for Project 1658 exceeded UTHSC’s claimed costs by
       $7,712. Similarly, the amount FEMA awarded for Project 2384 exceeded UTHSC’s claimed
       costs by $500. FEMA closed these projects without adjusting the final award amount to
       match the final claimed amount.

According to 44 CFR 13.20(b)(2) and (6), grantees and subgrantees must maintain accounting
records that adequately identify the source and application of federal funds and those accounting
records must be supported by source documentation such as cancelled checks, paid bills, time and
attendance records, and payroll records. UTHSC did not provide sufficient records to document the
above-referenced costs and in two instances FEMA did not adjust the final award to match claimed
amounts.

       Recommendation

We recommend that the Regional Director, FEMA Region VI:

   2. Disallow $ 635,522 in unsupported contractor costs on Projects 1886 ($624,190), 1658
      ($10,832), and 2384 ($500).


Finding C: Unallowable Contract Procedures

UTHSC did not follow all federal procurement standards or FEMA guidelines in awarding contracts
totaling $14,553,491. As a result, FEMA did not have adequate assurance that contract costs claimed
were reasonable. We reviewed six contracts totaling $16,262,616. Of the six, five did not meet one
or more required federal procurement standards. UTHSC awarded time and material contracts
without competition; however, 44 CFR 13.36(d)(4)(i)(B) allows for noncompetitive procurement
under certain circumstances, one being when the public exigency or emergency exists. We did not
question the noncompetitive contract costs because exigent circumstances existed at the time of
award. However, federal regulations and FEMA guidelines mandate that UTHSC use sound
procurement practices to contain costs even under exigent circumstances. UTHSC did not take the
following actions, resulting in violations of the indicated federal procurement standards:

           •   Prohibit cost-plus-a-percentage-of-cost provisions in contracts (44 CFR 13.36(f)(4)).
           •   Analyze proposed contract price or cost (44 CFR 13.36(f)(1)).
           •   Negotiate profit as a separate element of cost (44 CFR 13.36 (f)(2)).



                                                  3
Under 44 CFR 13.43(a)(2), failure to comply with applicable statutes or regulations can result in the
disallowance of all or part of the costs of the activity or action not in compliance. Because UTHSC
did not follow federal regulations and FEMA guidelines, FEMA had the authority to disallow all of
the $14,552,854 claimed costs. We did not question total costs based solely on noncompliance with
procurement standards because the work was necessary as a result of the disaster. However, as
discussed in Findings A and B, we questioned contract costs that were ineligible and unsupported.

UTHSC’s lack of compliance with federal procurement standards indicates that GDEM did not
adequately monitor UTHSC’s activities under the subgrant. According to 44 CFR 13.40(a), grantees
are to monitor subgrant supported activities to assure compliance with applicable federal regulations.

       Recommendation

We recommend that the Regional Director, FEMA Region VI:

   3. Require the Governor’s Division of Emergency Management to monitor subgrantees to
      ensure compliance with applicable federal regulations, standards, and guidelines related to
      procurement.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of the audit with FEMA officials on August 30, 2006, GDEM officials on
September 13, 2006, and UTHSC officials on September 14, 2006. UTHSC agreed with Finding A,
but did not agree with the recommendation to disallow contractor markups totaling $1,090,345. They
withheld comments on Finding B, stating that they would search for additional documentation
related to the costs questioned as unsupported; and they agreed with Finding C.

Please advise this office by January 17, 2007, of the actions taken or planned to implement the
recommendations, including target completion dates for any planned actions. Should you have any
questions concerning this report, please call me, or your staff may contact Paige Hamrick at (940)
891-8900.




                                                  4
                                                                                                                               EXHIBIT


                                                           Schedule of Audited Projects
                                            University of Texas Health Science Center, Houston, Texas
                                                      FEMA Disaster Number DR-1379- TX



                                                                                                   Ineligible   Unsupported
                                                                                                  Contractor     Contractor     Total
                                                             Amount        Insurance   Amount        Costs         Costs      Questioned
    Project Category Description of Work                     Claimed        Applied    Awarded    Questioned     Questioned     Costs
     1886      B     Temporary relocation of Gross
                     Anatomy Labs                     $4,592,973 $3,570,358 $ 912,587    $601,603                 $624,190 $1,225,793
     1885      B     Initial cleanup and demolition
                     of UTHSC buildings                4,663,898          0   4,663,898    659,950                       0      659,950
     1658      B     Temporary air conditioning
                     units to cool, heat, and
                     humidify buildings                5,352,106          0   5,359,818      6,750                   10,832      17,582
     2384      E     Replacement of TOFPET3
                     scanner                           1,709,125          0   1,709,625          0                     500          500
     2129      B     Disposal of hazardous waste          36,017          0      36,017          0                       0            0
     1235      A     Removal of perished research
                     animals                               9,507          0       9,507          0                        0          0
                                              Totals $16,363,626 $3,570,358 $12,691,452 $1,268,303                 $635,522 $1,903,825




3
    Time of Flight Positron Emission Tomography (TOFPET)
                                                                       5
